Department of Homeland Security
   Ofﬁce of Inspector General

             Design and Implementation of the 
 

         Federal Emergency Management Agency’s 
 

        Emergency Management Performance Grant 
 





OIG-11-78                                      April 2011
                                                            Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                                       APR21 2011
                                         Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the design and implementation of
the Federal Emergency Management Agency's Emergency Management Performance
Grant Program. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.



                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1 
 


Background ........................................................................................................................ 2 
 


Results of Audit ................................................................................................................. 4 
 


     EMPG Program Design Facilitates Emergency Management ..................................... 4 
 


     Implementation of EMPG Grant Life Cycle Delays Awarding of Funds ................... 5 
 

     Recommendation ......................................................................................................... 7 
 

     Management Comments and OIG Analysis ................................................................ 8 
 


     FEMA Has Developed But Not Implemented EMPG Performance Measures ........... 8 
 

     Recommendation ......................................................................................................... 9 
 

     Management Comments and OIG Analysis ................................................................ 9 
 


Appendices
     Appendix A:           Purpose, Scope, and Methodology ..................................................... 10 
 

     Appendix B:           Management Comments to the Draft Report ..................................... 12 
 

     Appendix C:           FEMA Regions and Assigned States/Territories ............................... 13 
 

     Appendix D:           Timelines of EMPG Grant Life Cycle, FYs 2007 Through 2010 ...... 14 
 

     Appendix E:           EMPG Appropriation Legislation ...................................................... 15 
 

     Appendix F:           Major Contributors to this Report ...................................................... 16 
 

     Appendix G:           Report Distribution ............................................................................ 17 
 


Acronyms and Abbreviations
     DHS                   Department of Homeland Security 
 

     EMPG                  Emergency Management Performance Grant 
 

     FEMA                  Federal Emergency Management Agency 
 

     FY                    fiscal year           
         

     OIG                   Office of Inspector General 
 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                   The Emergency Management Performance Grant Program is the
                   Federal Emergency Management Agency’s principal program to
                   enhance state and local governments’ emergency management
                   capabilities. Our objectives were to determine whether the
                   Emergency Management Performance Grant Program’s design,
                   implementation, and performance measurement strategy facilitate
                   improved emergency management and preparedness for its
                   grantees.

                   The Emergency Management Performance Grant Program is
                   designed to facilitate emergency management and preparedness for
                   its grantees.

                   The Federal Emergency Management Agency can improve
                   implementation of the program by awarding grant funds in a
                   timelier manner. From fiscal years 2007 through 2010, the Federal
                   Emergency Management Agency made annual awards 4 to 8
                   months after the beginning of the grant period of performance. As
                   a result, grantees delayed spending or used their own funds to
                   cover emergency management expenses until the Federal
                   Emergency Management Agency made grant funds available.

                   The Federal Emergency Management Agency has developed, but
                   not yet finalized or implemented, a strategy to measure the
                   effectiveness of program funds. Consequently, the Federal
                   Emergency Management Agency is not able to measure the value
                   that grant funds are adding to state and local emergency
                   preparedness.

                   We made two recommendations, which, if implemented, will
                   enhance the program’s overall effectiveness. Federal Emergency
                   Management Agency officials concurred with one
                   recommendation and the intent of the other recommendation.
                   Written responses to the recommendations from Federal
                   Emergency Management Agency officials are included in the
                   report as Appendix B.




          Design and Implementation of the Federal Emergency Management Agency’s 
 

                        Emergency Management Performance Grant
 


                                          Page 1 

Background
                The Federal Emergency Management Agency’s (FEMA) mission
                is to lead the Nation in a comprehensive emergency management
                system of preparedness, protection, response, recovery, and
                mitigation. The Emergency Management Performance Grant
                (EMPG) Program aids FEMA’s mission by enhancing and
                sustaining state and local governments’ emergency management
                capabilities. EMPG is FEMA’s principal program for funding all-
                hazards planning, training, exercises, and emergency management
                personnel.

                All 50 states and 6 territories, as well as the Republic of the
                Marshall Islands and the Federated States of Micronesia, are
                eligible for EMPG funds. EMPG is a formula grant that allocates
                each grantee (state or territory) a base amount, plus an amount
                determined by population. Congress appropriates EMPG funds
                annually, with a two-year period of performance. Figure 1 shows
                EMPG allocations from fiscal years (FYs) 2003 through 2010.

                Figure 1. EMPG Allocations, FYs 2003 through 2010

                                          EMPG Allocation

                         $350
                         $300
                         $250
                         $200
                    $M




                         $150
                         $100
                         $50
                         $­
                                2003 2004 2005 2006 2007 2008 2009 2010
                                                   Fiscal Year

                Source: FEMA.gov
                Note: In 2004, the Department of Homeland Security (DHS) allocated
                additional funds to EMPG above the amount that Congress appropriated. In
                2007, Congress appropriated an additional $50 million for EMPG in the U.S.
                Troop Readiness, Veterans’ Care, Katrina Recovery and Iraq Accountability
                Appropriations Act (P.L. 110-28).

                FEMA awards the funds to the grantees, which have the option to
                pass funds to subgrantees in local jurisdictions. EMPG requires a

       Design and Implementation of the Federal Emergency Management Agency’s 

                     Emergency Management Performance Grant


                                       Page 2
                        50% federal and 50% grantee match of funds. Each grantee
                        decides how much of the match requirement the subgrantees must
                        meet.

                        FEMA is organized into 10 geographical regions, each of which
                        oversees a number of grantees (see Appendix C). In FY 2010,
                        FEMA transferred many EMPG programmatic and financial grant
                        management functions from FEMA headquarters to the regions.
                        FEMA headquarters publishes annual guidance that provides
                        information to the grantees on applying for and obtaining funds.
                        The regions manage most other grant-related functions, including
                        reviewing grant applications, making award decisions, monitoring
                        grant activities, and providing grantee customer service (see
                        Figure 2).

Figure 2. EMPG Grant Life Cycle and Responsibilities
         Step 1 (HQ )          Step 2 (HQ )         Step 3 (Region )       Step 4 (Region )

          Program                                         Application    Award Package
                                 Guidance
         Guidance                                         Review and      Creation and
                                 Release
        Development                                        Decision         Issuance




       Step 5 (Region )      Step 6 (Region )       Step 7 (Region )     Step 8 (Region )

                                Standard                 Programmatic
           Award                                                             Award
                               Performance               Performance
         Amendment                                                          Closeout
                              Report Review               Monitoring



Source: FEMA
                        The Post-Katrina Emergency Management Reform Act of 2006
                        (P.L. 109-295) directed FEMA to develop robust regional offices
                        that work with state and local governments, among other entities,
                        to address regional priorities. FEMA is evaluating regionalization
                        of preparedness grants, including EMPG, through efforts such as
                        the Regionalization Implementation Grants Task Force. FEMA
                        formed this task force to identify issues surrounding
                        responsibilities for managing preparedness grants. Task force
                        participants included staff from FEMA headquarters and each of
                        the 10 regional offices, along with selected state and local grantees.
                        In addition, FEMA is reviewing regional resource levels needed to
                        take on new grant roles and responsibilities.




            Design and Implementation of the Federal Emergency Management Agency’s 
 

                          Emergency Management Performance Grant
 


                                              Page 3 

Results of Audit

     The EMPG Program is designed to facilitate emergency management and
     preparedness at the grantee level. FEMA can improve program implementation
     by awarding grant funds more efficiently. From FYs 2007 through 2010, FEMA
     waited to issue guidance, review grantee applications, and make awards until
     Congress appropriated funds. This practice delayed annual awards between four
     and eight months after the beginning of the period of performance. As a result,
     grantees delayed spending or used their own funds to cover emergency
     management expenses until FEMA made grant funds available.

     FEMA has developed a strategy to measure the effectiveness of program funds,
     but has not yet finalized or implemented it. As a result, FEMA is not able to
     measure the value that EMPG funds are adding to state and local emergency
     management and preparedness.

     EMPG Program Design Facilitates Emergency Management
            The EMPG Program is designed to provide funds that assist grantees in
            enhancing and sustaining their emergency management capabilities. We
            identified and evaluated four major design components of the program:

                    Allocation Formula: The EMPG allocation formula, designed by
                    Congress to be partially based on population, is appropriate to
                    meet the intent of the grant. The formula acknowledges the need
                    for emergency management capabilities in all states and territories.
                    Both FEMA and grantee emergency management officials
                    supported the noncompetitive nature of EMPG.

                    Period of Performance: Although EMPG is an annual grant,
                    FEMA allows a two-year period of performance. This gives state
                    and local emergency management agencies the flexibility to plan
                    and execute the use of EMPG funds.

                    Allowable Cost Categories: The allowable cost categories,
                    selected by FEMA, support a broad range of staffing, planning,
                    training, equipment, and maintenance expenses. These categories
                    are consistent with the mission of the grant.

                    Match Requirement: The congressionally mandated 50% federal
                    and 50% grantee match requirement promotes shared responsibility
                    for funding emergency management. Some grantees and
                    subgrantees reported that the economic downturn affected their


           Design and Implementation of the Federal Emergency Management Agency’s 
 

                         Emergency Management Performance Grant
 


                                           Page 4 

             ability to meet the match. However, state and local officials
             generally agreed that the match requirement was fair.

Implementation of EMPG Grant Life Cycle Delays Awarding of
Funds
     FEMA’s implementation of the EMPG grant life cycle prevents funds
     from reaching the grantees in a timely manner. FEMA has historically
     awarded funds approximately four to eight months after the start of the
     EMPG period of performance (see Table 1).

     Table 1. Comparison of EMPG Period of Performance Start Date to Award Date
                        Start of Period    Most Common           Elapsed Time
       Fiscal Year
                       of Performance        Award Date             (approx.)
            2007             10/1/2006             2/27/2007               5 months
            2008             10/1/2007             5/16/2008             7.5 months
            2009             10/1/2008             2/13/2009             4.5 months
            2010             10/1/2009             6/01/2010               8 months
     Note: “Most Common Award Date” is based on the 19 grantee files we reviewed. Some
     awards were made on slightly earlier or later dates.

     The annual EMPG grant guidance specified that the period of performance
     starts on October 1, the beginning of the federal fiscal year. This provided
     grantees with continuous periods in which to charge year-round expenses,
     such as salaries, to the grant. It also gave grantees assurance that all
     eligible expenditures would count toward the match requirement.

     In FYs 2007, 2008, and 2010, Congress appropriated funds for EMPG
     after the start of the periods of performance. In FY 2009, Congress
     appropriated funds on September 30, 2008, one day before the start of the
     period of performance. In each of these years, FEMA did not finalize the
     EMPG guidance until after Congress appropriated funds for that year’s
     grant. This delayed the guidance issuance, application submissions,
     application reviews, and award notifications. Consequently, FEMA did
     not award funds to grantees until several months into the period of
     performance. The timelines in Appendix D illustrate the sequence of key
     events in the grant life cycle for FYs 2007 through 2010.

     A FEMA official said that historically, FEMA’s practice had been to issue
     grant guidance only after Congress had passed a related appropriations
     bill. Other FEMA officials expressed frustration that this practice has
     delayed availability of funds to the grantees.



    Design and Implementation of the Federal Emergency Management Agency’s 

                  Emergency Management Performance Grant


                                    Page 5
 Grantees reported challenges in meeting their emergency management
 obligations because FEMA did not award funds in a timely manner. For
 example, one state official said that state law prevented the grantee from
 forwarding any funds to subgrantees until FEMA made the funds
 available. An official from another state said that the state had to redirect
 substantial state funds to cover qualified grant expenditures until FEMA
 awarded the funds.

 The delay in the availability of funds creates an administrative burden for
 both the grantee and FEMA. Many grantees have to file for grant
 extensions because they have remaining balances at the end of the original
 period of performance. Remaining balances are caused in part by the
 delayed availability of funds, but they may also result from project delays,
 changes in grantee staff, or other reasons. Depending on the fiscal year,
 71% to 95% of grantees had remaining balances at the end of the original
 period of performance (see Table 2).

 Table 2. Remaining Balances at the End of the Original Periods of Performance
              Number of        Percentage
                                                                 Percentage
               Grantees        of Grantees         Total
  Fiscal                                                           of Total
                 With              With         Remaining
   Year                                                             Award
              Remaining        Remaining          Balance
                                                                 Remaining
               Balances          Balances
    2007        41 out of 58           71%          $23,772,953           12%
    2008        51 out of 58           88%          $61,909,824           21%
    2009        55 out of 58           95%          $92,641,427           30%
 Note: FY 2010 is not included because the original period of performance was still
 ongoing during the course of this audit. FY 2007 figures do not include the $50 million
 supplemental appropriation.

 EMPG guidance specifies that remaining funds will be returned to the
 federal government at the end of the closeout period, 90 days after the end
 of the original period of performance. Therefore, grantees with open
 balances at the end of the closeout period must file for extensions or return
 the remaining funds to the federal government. All extension requests
 must be submitted at least 60 days before the grant period of performance
 expires. While FEMA officials must review all close-out reports,
 reviewing extensions creates additional work.

 FEMA can distribute funds in a timelier manner by starting the EMPG 

 application cycle earlier in the year. FEMA could issue preliminary 

 guidance with target allocations several months before the start of the 

 period of performance. Grantees could work with FEMA to develop 

 preliminary grant applications that they could amend following the final 

 appropriation. 


Design and Implementation of the Federal Emergency Management Agency’s 

              Emergency Management Performance Grant


                                 Page 6
                        A FEMA official with whom we discussed this proposal said that FEMA
                        could accomplish most of the application review work before the release
                        of the final appropriation. Grantees could include options in their
                        applications in case the target allocations varied from the final
                        appropriation. These options would reduce additional work if the final
                        appropriation differed from the preliminary guidance. Historically,
                        Congress has not changed the EMPG requirements in the appropriation
                        bills (see Appendix E). This stability should give FEMA and grantees
                        confidence that future appropriation bills will not make significant
                        alterations to the preliminary guidance. Figure 3 illustrates how FEMA
                        can accelerate the award date by issuing preliminary guidance before the
                        start of the period of performance.

                        Figure 3. Current and Proposed Approaches for EMPG Life Cycles
FY 2012 (current approach)


                                           10/1/2011                   12/18/2011                                     4/6/2012
                                 Period of Performance Begins        Guidance Issued                                Awards Made




          7/2011        8/2011     9/2011     10/2011     11/2011       12/2011      1/2012      2/2012    3/2012      4/2012       5/2012


                                                     10/29/2011                       1/17/2012                                     5/4/2012
                                                 Appropriation Passed               Application Due                             First Drawdown



FY 2012 (recommended approach)

       7/1/2011                             10/1/2011     11/11/2011                1/6/2012
 Preliminary Guidance                       Period of   Final Guidance            Awards Made
        Issued                         Performance Begins Issued




          7/2011        8/2011     9/2011     10/2011     11/2011       12/2011      1/2012      2/2012    3/2012      4/2012       5/2012


                                                    10/29/2011     12/6/2011                  2/3/2012
                                                   Appropriation Application Due          First Drawdown
                                                      Passed
Note: All dates for the “Current Approach” are based on average dates of FYs 2007 through 2010 (see
Appendix D).



                        Recommendation
                                   We recommend that the Assistant Administrator, Grant Programs
                                   Directorate:

                                   Recommendation #1: Issue preliminary EMPG guidance and
                                   begin reviewing applications several months before the start of the
                                   grant period of performance.

                    Design and Implementation of the Federal Emergency Management Agency’s
                                  Emergency Management Performance Grant

                                                                    Page 7
     Management Comments and OIG Analysis
             FEMA concurred with the intent of the recommendation and is
             working with senior leadership in FEMA, DHS, and the Office of
             Management and Budget to finalize and publish FY 2011 EMPG
             guidance as soon as possible. FEMA is working to finalize
             performance measures that will be included in the guidance. Once
             the measures are finalized, FEMA anticipates immediately posting
             the guidance and opening the EMPG application period.

             The proposed action by FEMA, if achieved, would address this
             recommendation for FY 2011. However, in order to resolve the
             recommendation, we would need to see a timetable for
             implementing the recommendation for FY 2011 and establishing a
             policy for future year grant guidance. The recommendation will
             remain open and unresolved until these actions are addressed.
             Within 90 days, the FEMA Administrator needs to outline a
             corrective action plan to implement the recommendation.

FEMA Has Developed But Not Implemented EMPG Performance
Measures
     FEMA has developed but not implemented a strategy to measure the
     effectiveness of the EMPG Program. FEMA developed this strategy by
     assembling a working group of headquarters and regional staff with
     subject matter expertise. The group developed a number of performance
     measures, identified data to collect, and proposed tools and methods to
     collect the data.

     The working group developed 24 performance measures, of which 6 are
     ready to deploy. These measures focus on areas such as the completeness
     of emergency operations plans, the timely filing of reports, and the
     number of trained emergency management personnel. We evaluated the
     six ready-to-deploy performance measures and concluded that they are
     generally sufficient to measure EMPG’s performance, provided that
     FEMA uses accurate and complete data.

     In addition to the 24 developed performance measures, FEMA uses one
     existing performance measure known as the Emergency Management
     Accreditation Program Standard. The Emergency Management
     Accreditation Program is a voluntary review process, developed with input
     from emergency managers and government officials. Using self-
     assessments and peer reviews, an independent commission accredits
     jurisdictions that demonstrate compliance with 63 national standards for


    Design and Implementation of the Federal Emergency Management Agency’s 

                  Emergency Management Performance Grant


                                    Page 8
 emergency management. FEMA reported that the program had accredited
 39% of states and territories for FY 2009.

 FEMA has not implemented the six performance measures because it
 traditionally uses the grant guidance to first notify grantees of new
 measures. FEMA officials said that information relating to the six new
 measures will not be included in the FY 2011 guidance. A FEMA official
 said that the final version of the measures was not ready in time to meet
 the review deadlines for the guidance.

 FEMA cannot analyze grantee performance data for at least an additional
 grant cycle because it did not include the performance measures in the
 FY 2011 guidance. As a result, it is unable to measure and report on the
 impact and value of the EMPG funds or focus on where to improve the
 program.

 Recommendation
         We recommend that the Assistant Administrator, Grant Programs
         Directorate:

         Recommendation #2: Finalize and publish the performance
         measures in the EMPG grant guidance as soon as possible.

 Management Comments and OIG Analysis
         FEMA concurred with the recommendation and has decided to
         include performance measures in the FY 2011 EMPG guidance.
         FEMA is working with Office of Management and Budget
         officials to finalize acceptable performance measures.

         The proposed action by FEMA would address this
         recommendation. However, until a timetable for implementation
         of the recommendation is provided, the recommendation will
         remain open and unresolved. Within 90 days, the FEMA
         Administrator needs to outline a corrective action plan to
         implement the recommendation.




Design and Implementation of the Federal Emergency Management Agency’s 
 

              Emergency Management Performance Grant
 


                                Page 9 

Appendix A
Purpose, Scope, and Methodology

                    Our objectives were to determine whether the EMPG’s design,
                    implementation, and performance measurement strategy facilitate
                    improved emergency management and preparedness for the
                    grantees.

                    To accomplish our objectives, we reviewed applicable laws and
                    regulations, prior audit reports, EMPG grant guidance for
                    FYs 2007 through 2010, and additional FEMA documents related
                    to EMPG. Legislation we reviewed included the following:
                            Robert T. Stafford Disaster Relief and Emergency
                            Assistance Act (P.L. 93-288)
                            Post-Katrina Emergency Management Reform Act of 2006
                            (P.L. 109-295)
                            Implementing Recommendations of the 9/11 Commission
                            Act of 2007 (P.L. 110-53)
                            Annual appropriation legislation (listed in Appendix E)

                    We interviewed FEMA officials at FEMA headquarters. We
                    selected three FEMA regions for site visits based on geographical
                    distribution, size of the region’s allocation, reported remaining
                    balances, and recent major disasters. We selected and visited one
                    state in each region:
                             Region I – Boston, MA; State – Connecticut
                             Region IV – Atlanta, GA; State – Tennessee
                             Region VI – Denton, TX; State – Louisiana

                    At each FEMA region we visited, we interviewed EMPG program
                    managers and preparedness grants financial specialists. At each
                    state we visited, we interviewed EMPG program officials to
                    determine the impact of the allocation formula, period of
                    performance, allowable costs, and the match requirement. We also
                    selected and interviewed 19 subgrantees from the visited regions.

                    In addition, we obtained copies of grant files from FYs 2007
                    through 2010 for the 19 grantees in FEMA Regions I, IV, and VI.
                    We reviewed the grant applications, award documents, grant
                    modifications, correspondence, and extensions.

                    To calculate the remaining balances of EMPG funds, FEMA
                    provided EMPG drawdown data for all grantees from October 1,
                    2006, through September 30, 2010. We then calculated the
                    remaining balances for each EMPG award from FYs 2007 through
                    2010. We did not verify the reliability of the data that FEMA



           Design and Implementation of the Federal Emergency Management Agency’s 
 

                         Emergency Management Performance Grant
 


                                           Page 10 

Appendix A
Purpose, Scope, and Methodology

                    provided. However, based on our testing, we believe that the data
                    are sufficiently reliable to meet our audit objectives.

                    We evaluated FEMA’s proposed performance measures to ensure
                    that they were logical and consistent. However, because FEMA
                    has not collected data for the performance measures, we were
                    unable to test the effectiveness of the measures.

                    We conducted this audit between August 2010 and January 2011,
                    under the authority of the Inspector General Act of 1978, as
                    amended, and according to generally accepted government
                    auditing standards. Those standards require that we plan and
                    perform the audit to obtain sufficient, appropriate evidence to
                    provide a reasonable basis for our findings and conclusions based
                    on our audit objectives. We believe the evidence obtained
                    provides a reasonable basis for our findings based on our audit
                    objectives.




           Design and Implementation of the Federal Emergency Management Agency’s 
 

                         Emergency Management Performance Grant
 


                                           Page 11 

Appendix B
Management Comments to the Draft Report


                                                                               l!.S. O('llllrlmClIl or
                                                                               u.s. I)cllllrllllClI1   or lIomchll1d    S«uril~
                                                                                                          IIl.lmcl:'lnd S«urit~
                                                                               500 C 5It1."I:l.  SW
                                                                                       Sln.-.:I. S\\'
                                                                               \\OShlll!;""'. DC !0-I72
                                                                               W::ashlll};IOO.       :!0472




                                                            MAR 3 1 2011
        MEMORANDUM
        MEMORANO M FOR:              Anne L.
                                           L Richards
                                     Assistant Inspector General for Audits
                                     Office of Inspector General
                                      I2.J::t:-c.
                                      1i.J;i;-c.    O?~RJA.­
                                                    O?~ RJA-
        FROM:                        l>av{d·
                                     David- J.   Kaufman
                                                 Kau fman
                                     Director
                                     Office of Policy and Program Analysis

        SUBJECT:                                      Draft. Report, Design and Implemeutatioll
                                     Comments to OIG Draft                                      a/the
                                                                                Implementation of the
                                     Federal Emergency Managemeut
                                                       Management Agency's Emergency
                                     Management Pe,formallce Grant
                                                               Gram Program (EMPG)

        Thank you for the opportunity to comment on the draft report. The findings in the report will be
        used to strenbrthen
                strengthen the effectiveness and efficiency of how we execute and measure the program.
        We recognize the need to continue to improve the process, including addressing the
        recommendations raised in this report. Our responses
                                                     responscs to the recommendations
                                                                      recommcndations are as follows:

        Recommendation I: We recommend that the Assistant Administrator, Grant Programs
        Directorate issue preliminary EMPG guidance and begin reviewing
                                                              revicwing applications several months
        before the start of the grant period of perfonnance.

        FEMA Response: FEMA concurs with the intent of this recommendation. FEMA has
        considered this recommendation for FY 20 II and is working with senior leadership in FEMA,
        DHS, and OMB 10
        OHS.             to finalize and publish the guidanee as quiekly as possible. The Grant Programs
        Directorate (GPO)
                    (GPD) is working with the National Preparedness Division (NPO)
                                                                                 (NPD) to finalize
        perfonnance measures that can be included in the guidance. Once these measures are finalized
        we anticipate the guidance will be immediately posted and the application period will be open.

        Recommendation 2: We recommend that the Assistant Administrator,
                                                               Administrator. Grant Programs
        Directorate finalize and publish the perfonnance measures in the EMPG grant guidance as soon
        as possible.

                                                     recommendation. At thc
       FEMA Response: FEMA concurs with this recommcndation.              the time of the exit interview,
                                                                                               intervicw.
                                   considered and a detennination
       this option was still being considercd       determination has since been made that perfonnance
       measures will be included
                         ineluded in the grant guidance for FY 2011. FEMA (GPO and NPO) is working
       with OMB
             OMB/NSSSS to finalize acceptable perfonnance measures for inclusion in the FY 2011
       EMPG
       EM PG Guidanee.
               Guidance.




                                                                               W\\W.fl'II1:l.g0\·




             Design and Implementation of the Federal Emergency Management Agency’s 
 

                           Emergency Management Performance Grant
 


                                                      Page 12 

Appendix C
FEMA Regions and Assigned States/Territories




  Region               State/Territory                Region                 State/Territory
      I          Connecticut                                VI      Arkansas
 Boston, MA      Maine                              Denton, TX      Louisiana
                 Massachusetts                                      New Mexico
                 New Hampshire                                      Oklahoma
                 Rhode Island                                       Texas
                 Vermont                                    VII     Iowa
     II          New Jersey                        Kansas City,     Kansas
 New York,                                            MO
                 New York                                           Missouri
   NY
                 Puerto Rico                                        Nebraska
                 U.S. Virgin Islands                    VIII        Colorado
     III         Delaware                           Denver, CO      Montana
Philadelphia,    District of Columbia                               North Dakota
     PA          Maryland                                           South Dakota
                 Pennsylvania                                       Utah
                 Virginia                                           Wyoming
                 West Virginia                              IX      American Samoa
     IV          Alabama                           Oakland, CA      Arizona
 Atlanta, GA     Florida                                            California
                 Georgia                                            Federated States of Micronesia
                 Kentucky                                           Guam
                 Mississippi                                        Hawaii
                 North Carolina                                     Nevada
                 South Carolina                                     Northern Mariana Islands
                 Tennessee                                          Republic of the Marshall Islands
     V           Illinois                                   X       Alaska
 Chicago, IL     Indiana                            Seattle, WA     Idaho
                 Michigan                                           Oregon
                 Minnesota                                          Washington
                 Ohio
                 Wisconsin




                Design and Implementation of the Federal Emergency Management Agency’s 
 

                              Emergency Management Performance Grant
 


                                                Page 13 

Appendix D
Timelines of EMPG Grant Life Cycle, FYs 2007 Through 2010

FY 2007

       10/1/2006
 Period of Performance        11/29/2006                            2/27/2007
         Begins             Guidance Issued                        Awards Made




          10/2006       11/2006    12/2006      1/2007      2/2007       3/2007        4/2007     5/2007         6/2007

       10/4/2006                           12/29/2006                                               5/9/2007
  Appropriation Passed                   Application Due                                        First Drawdown

FY 2008
       10/1/2007
 Period of Performance                                   2/1/2008                                   5/16/2008
         Begins                                       Guidance Issued                              Awards Made




          10/2007       11/2007    12/2007     1/2008       2/2008       3/2008        4/2008     5/2008         6/2008

                                        12/26/2007                    3/1/2008                           5/29/2008
                                    Appropriation Passed           Application Due                    First Drawdown

FY 2009

       10/1/2008
 Period of Performance   11/19/2008                         2/13/2009
         Begins        Guidance Issued                     Awards Made




          10/2008       11/2008    12/2008      1/2009      2/2009       3/2009        4/2009     5/2009         6/2009

      9/30/2008                       12/19/2008                         3/10/2009
 Appropriation Passed               Application Due                   First Drawdown

FY 2010

       10/1/2009
 Period of Performance                12/22/2009                                                             6/1/2010
         Begins                     Guidance Issued                                                        Awards Made




          10/2009       11/2009    12/2009      1/2010      2/2010       3/2010        4/2010     5/2010         6/2010

                10/28/2009                          1/22/2010                                               6/1/2010
            Appropriation Passed                  Application Due                                       First Drawdown




                 Design and Implementation of the Federal Emergency Management Agency’s
                               Emergency Management Performance Grant

                                                         Page 14
Appendix E
EMPG Appropriation Legislation
Bill                       Appropriation Language             Other Provisions Relating to EMPG
Consolidated               $165,000,000 shall be for          None
Appropriations             emergency management
Resolution, 2003           performance grants
P.L. 108-7
Department of              For necessary expenses for         Provided, That total administrative costs shall
Homeland Security          emergency management               not exceed three percent of the total
Appropriations Act, 2004   performance grants, as             appropriation.
P.L. 108-90                authorized…, $180,000,000
Department of              For necessary expenses for         Provided, That total administrative costs shall
Homeland Security          emergency management               not exceed three percent of the total
Appropriations Act, 2005   performance grants, as             appropriation.
P.L. 108-334               authorized…, $180,000,000
Department of              For necessary expenses for         Provided, That total administrative costs shall
Homeland Security          emergency management               not exceed three percent of the total
Appropriations Act, 2006   performance grants, as             appropriation.
P.L. 109-90                authorized…, $185,000,000
Department of              For necessary expenses for         Provided, That total administrative costs shall
Homeland Security          emergency management               not exceed three percent of the total
Appropriations Act, 2007   performance grants, as             appropriation.
P.L. 109-295               authorized…, $200,000,000

U.S. Troop Readiness,      For an additional amount for       None
Veterans’ Care, Katrina    “Emergency Management
Recovery, and Iraq         Performance Grants,”
Accountability             $50,000,000.
Appropriations Act, 2007
(2007 Supplemental
Appropriation)
P.L. 110-28
Consolidated               For necessary expenses for         Provided, That total administrative costs shall
Appropriations Act, 2008   emergency management               not exceed three percent of the total amount
P.L. 110-161               performance grants, as             appropriated under this heading.
                           authorized…, $300,000,000

Consolidated Security,     For necessary expenses for         Provided, That total administrative costs shall
Disaster Assistance, and   emergency management               not exceed three percent of the total amount
Continuing                 performance grants, as             appropriated under this heading.
Appropriations Act, 2009   authorized…, $315,000,000
P.L. 110-329
Department of              For necessary expenses for         Provided, That total administrative costs shall
Homeland Security          emergency management               not exceed 3 percent of the total amount
Appropriations Act, 2010   performance grants, as             appropriated under this heading, and an
P.L. 111-83                authorized…, $340,000,000          expenditure plan for program administration
                                                              shall be provided to the Committees on
                                                              Appropriations of the Senate and the House
                                                              of Representatives within 60 days of the date
                                                              of enactment of this Act.




                Design and Implementation of the Federal Emergency Management Agency’s 
 

                              Emergency Management Performance Grant
 


                                                 Page 15
 

Appendix F
Major Contributors to this Report

                     Michael Siviy, Director
                     Barry Russell, Audit Manager
                     Tristan Weir, Auditor-in-Charge
                     Jeanne Genao, Program Analyst
                     Tia Jackson, Program Analyst
                     Ashley Smith, Program Analyst
                     James Bess, Referencer




            Design and Implementation of the Federal Emergency Management Agency’s 
 

                          Emergency Management Performance Grant
 


                                            Page 16 

Appendix G
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




            Design and Implementation of the Federal Emergency Management Agency’s 
 

                          Emergency Management Performance Grant
 


                                            Page 17
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
